la

APPENDIX A
TRIAL COURT: ORDER GRANTING
DEFENDANTS’ MOTIONS TO DISMISS
PLAINTIFFS FIRST AMENDED
COMPLAINT (7/3/18)
Case 4:18-cv-00293-KAW Document 87 Filed
07/03/18 Page 1 of 10
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
CHRISTOPHER HADSELL, Plaintiff
v.
BARRY BASKIN, ET AL„ DEFENDANTS.
Case No. 4:18-cv-00293-KAW
ORDER GRANTING DEFENDANTS’ MOTIONS
TO DISMISS PLAINTIFFS FIRST AMENDED
COMPLAINT
Re: Dkt. Nos. 51-56, 58
Between April 19, 2018 and April 24, 2018, the
defendants filed six separate motions to dismiss
Plaintiffs, Christopher Hadsell,] first amended
complaint. (Dkt. Nos. 51-56 & 58.)
Upon review of the moving papers, the Court finds
this matter suitable for resolution without oral argument

2a
pursuant to Civil Local Rule 7-l(b), and, for the reasons
set forth below, GRANTS the motions to dismiss without
leave to amend, because any amendment would be futile.
L BACKGROUND
Plaintiff[,] Christopher Hadsell[,] filed this lawsuit
against Defendants Barry Baskin, Christopher Bowen,
Kimberly Campbell, Tani Cantil-Sakauye, Contra Costa
County [Department of Child Support Services], Garrett
Dailey, Barbara Hinton, Garry Ichikawa, Catherine
Isham, Barbara Jones, Mary Lindelof, Terri Mockler,
Kathleen Murphy, Henry Needham, Jr., Anita Santos,
Melinda Self, Mark Simons, G. Boyd Tarin, Charles
Treat, Tracey Wapnick, Edward Weil, and William
Whiting alleging various civil rights violations arising
from his state [-]court divorce proceedings. (See First Am.
Compl., “FAC,” Dkt. No. 45
1-2.) Essentially, Plaintiff
alleges that the judges, court staff, County employees, his
ex-wife and her attorneys were conspiring to defraud him
and violate his civil rights. Id.
Case 4:18-cv-00293-KAW Document 87
07/03/18 Page 2 of 10

Filed

The 22 defendants can be divided into four
categories. [1] Plaintiff is suing his ex-wife, Catherine
Isham. (FAC If 6(1).) [2] Kimberly Campbell, Garrett
Dailey, Tracey Wapnick, and William Whiting are [some
of the] attorneys who represented Ms. Isham during the
divorce proceedings.1 ([inter aha], FAC
6(C, F, [T,] V),
20, 39(D) n. 9.)
[3] Mary Lindelof, Melinda Self, and G. Boyd Tarin
participated in the state[-]court proceedings in the scope
of their employment with the Contra Costa County
Department of Child Support Services (“DCSS”), so they,

3a
along with Contra Costa County [sic], are named as
defendants (hereinafter referred to as the “County
Defendants”). (FAC H 6(E, K, P, R).)
[4] Barry Baskin, Christopher Bowen, Tani CantilSakauye, Barbara Hinton, Garry Ichikawa, Barbara
Jones, Terri Mockler, Kathleen Murphy, Henry
Needham, Jr, Anita Santos, Mark Simons, Charles
Treat, and Edward Weil are judicial officers serving on
the bench of the Superior Court of California, the
California Court of Appeal, or the California Supreme
Court (hereinafter referred to as the “Judicial
Defendants”). (FAC H 6 (A, B, D, G, H, J, L-O, Q, S, and
U).)
In summary, Plaintiff filed his petition for dissolution
of marriage on February 8, 2011. (FAC U 13.) The case
was initially assigned to Judge Fannin. (FAC If 14.) Ms.
Isham also filed a petition for the dissolution of marriage,
and the two cases were consolidated. (FAC
16,18.) Ms.
Isham filed a motion to requesting [sic] that Judge
Fannin recuse herself, because her attorney, Mr.
Whiting, had a conflict. (FAC t 20.) Judge Fannin
recused herself. (FAC f 22.)
The case was reassigned to Judge Treat, and, on
September 20, 2011, the court issued a temporary family
support order. (FAC
32-34.) On December 6, 2011, the
court held a one-day trial on the income imputation issue,
and ruled that no income could be imputed to Hadsefl,
and that no change was to be made to the September 20,
2011 support order. (FAC 1fH 39 (A), (K).) Plaintiff
contends that any modifications to the December 6, 2011
order are void, because no circumstance that allows for a
modification has occurred and the time for appeal has
expired. (FAC If 41.)

4a
1 For the sake of simplicity, all references to Ms. Isham
also concern the actions of her attorneys, as Plaintiffs
allegations against Ms. Isham’s counsel are based purely
on their professional conduct in the course of their legal
representation, which is privileged.
2

Case 4:18-cv-00293-KAW Document 87
07/03/18 Page 3 of 10.

Filed

Thereafter, Judge Treat calendared a retrial of the
income imputation issue, which occurred on October 24,
2012. (FAC If 44.) Plaintiff alleges that Mr. Whiting
defrauded the court by presenting exhibits and testimony
regarding filled positions, which Plaintiff contends do not
qualify as job opportunities for the purposes of income
imputation. (FAC If 47(B)(ii)(l).) On July 3, 2013, Judge
Treat entered an order that increased Plaintiffs monthly
family support payments from $766.00 to $7,375.00.
(FAC If 48(A)(i-ii).) Plaintiff contends that in the July 3,
2013 judgment, Judge Treat: (1) failed to make findings
in the best interest of the children and minimize the
disparities between the households; (2) improperly
awarded Isham funds from Plaintiffs 401(k) account; (3)
improperly construed “undisputed community property”
as Isham’s separate property; (4) improperly sanctioned
Plaintiff. (FAC til 48, 63, 68, 81-82, 87[-]88.) Plaintiff
further contends that he was treated differently than
similarly situated people because he has been unable to
find cases in which persons in his situation were treated
as he was. (See FAC t[1f] 49[, 58, 72, 83, 89].) The first,
second, third, fourth, and fifth causes of action allege that
the July 3, 2013 order violates the U S. Constitution, as
well as applicable federal and state laws.

5a
Plaintiff appealed the July 3, 2013 judgment to the
Court of Appeal for the State of California, First
Appellate District. (FAC
93-9[6].) On March 13, 2015,
the Court of Appeal panel—Justices Jones, Needham,
and Simons—issued its ruling, affirming the July 3, 2013
judgment in all [sic] relevant aspects. (See FAC U 94(D)
[sic].) Plaintiff then filed a petition for review with the
Supreme Court for the State of California, which denied
the petition. (FAC ][ 95(D)(ii).) [Plaintiff further contends
that he was treated differently than similarly situated
people because he has been unable to find cases in which
persons in his situation were treated as he was. (See FAC
t 97.)] The sixth cause of action is against the court of
appeal for its failure to provide a “meaningful review” of
the July 3, 2013 judgment in violation of California law,
which Plaintiff alleges is also a violation of the U.S.
Constitution.
On July 9, 2013, Ms. Isham filed a writ of execution,
attempting to collect[, inter aha,] arrearages from the
income imputed to Plaintiff in accordance with the July
3, 2013 judgment. (FAC ^ 10[7.A.i.].) On July 15, 2013,
Plaintiff filed a claim of exemption, and on July 25, 2013,
Ms. Isham filed an opposition to Plaintiff s claim. (FAC
10[4, ]106.) The matter was set for hearing on August
16, 2013. (FAC t 108.) Isham filed a supplemental brief
the night before the hearing and asked for a continuance.
(FAC tit 108(E), (N).) The hearing was continued, and
Judge Hinton awarded funds
3

Case 4:18-cv-00293-KAW Document
07/03/18 Page 4 of 10

87

Filed

to Ms. Isham as a result of the writ of execution as part

6a
of a judgment [made] on October 15, 2013 [and entered
on December 11, 2014.]. (FAC ff 108(0), 108(U)(ii).)
[Plaintiff further contends that he was treated differently
than similarly situated people because he has been
unable to find cases in which persons in his situation
were treated as he was. (See FAC 1 111.)] The seventh
cause of action seeks to bar Ms. Isham from any efforts to
enforce the July 3, 2013 judgment on the grounds that
the judgment is invalid. (FAC 1H] 100-113.)
Following Ms. Isham’s efforts to enforce the July 3,
2013 judgment, Plaintiff alleges that the Contra Costa
County Department of Child Support Services (“DCSS”):
(1) garnished or levied his financial accounts to collect
[inter aha] the unpaid amounts of the court-ordered
family support payments, (2) reported to credit bureaus
that plaintiff did not make the court-ordered family
support payments, (3) informed the California DMV that
Plaintiff did not make the cOurt-ordered family support
payments, and (4) informed the California State Bar that
Plaintiff did not make the court-ordered family support
payments. (FAC
1[30], 1 [52].) On December 12, 2013,
the State Bar of California issued a notice to Plaintiff,
wherein he was advised that DCSS identified him as “a
person who is in arrears in court ordered child or family
support obligations." (FAC, Ex. 1.)
Plaintiff further alleges that the individually-named
DCSS employees— Lindelof, Self and Tarin — “acted in
concert... in implementing DCSS’... collections efforts”
with respect to the court-ordered judgment requiring
Plaintiff to make family support payments. (FAC Htt]
162[.B, 162.E, and 162.F.) Specifically, Plaintiff alleges
that Lindelof stated in open court on January 8, 2014
that DCSS was going to collect the court-ordered family
support payments from Plaintiff, contacted Charles
Schwab in 2014 to request that Plaintiffs funds be

7a
released to satisfy the family support judgment, and
opposed Plaintiffs request that his California driver’s
license be renewed. (FAC HU 121, 160.) Regarding Self,
the Plaintiff alleges that she directly supervised Lindelof
and Tarin, and that she “acted in concert with . . .
Lindelof . . . [and] Tarin.” (FAC 1f[1D 153[, 162.A].)
Regarding Tarin, Plaintiff alleges that he “acted in
concert with ... Lindelof... [and] Self.” (FAC If 162(F).)
On January 8, 2014, Plaintiff alleges a hearing took place
before then-Commissioner Santos, which appears to be
related to collection efforts by the DCSS. (FAC If 121(A).)
Plaintiff references a rehearing on the same issues before
Judge Mockler on July 25, 2016. (FAC If 124.) [Plaintiff
further contends that he was treated differently than
similarly situated people because he has been unable to
find cases in which persons in his situation were treated
as he was. (See FAC If If 111, 131, and 161.)] The eighth
and tenth causes of action allege that DCSS’ attempts to
garnish and levy his accounts are constitutional
violations because the underlying judgment is invalid.
4
Case 4:18-cv-00293-KAW Document 87
07/03/18 Page 5 of 10

Filed

On Februaiy 18, 2014, Plaintiff filed a motion to
dismiss “Case 775.” (FAC 1f 142.) Following a hearing on
July 21, 2014, Judge Hinton denied the motion. (FAC 1f1f
144(A)-(G).) [Plaintiff further contends that he was
treated differently than similarly situated people because
he has been unable to find cases in which persons in his
situation were treated as he was. (See FAC 1f 145.)] The
ninth cause of action is premised on Judge Hinton’s
refusal to dismiss Case 775.

8a
The eleventh cause of action alleges that Ms. Isham’s
motion to change custody violates the law. [Plaintiff
further contends that he was treated differently than
similarly situated people because he has been unable to
find cases in which persons in his situation were treated
as he was. (See FAC If 174.)] On December 4, 2015, Ms.
Isham filed an Ex Parte Application for an Order
Shortening Time/Temporary Emergency Court Order to
[change the permanent custody orders in] the July 3,
2013 judgment. (FAC 1f 165.) Plaintiff filed a motion
objecting to Judge Weil for cause on December 17, 2015.
(FAC If 166.) Judge Weil issued temporary child custody
orders based upon Ms. Isham’s ex parte application.
(FAC 1f1f 169(A)-(F).) At a hearing on December 21, 2015,
Judge Weil attempted to locate another judge to conduct
the hearing. (FAC 1f 170(A)(v)(4).) Judge Weil left the
courtroom, and the clerk informed the parties that the
hearing would take place at 1:30 p.m. before Judge
Baskin. (FAC Iflf 170(A)(vi)-(vii).) Plaintiff was unable to
attend the afternoon hearing. (FAC 1f 171(A).) Judge
Baskin issued the temporary child custody orders. (See
FAC If 171(C)(i[i])-D] Plaintiff contends that Ms. Isham
abandoned her December 4, 2015 Emergency Custody
Order when she filed a new Temporary Emergency Order
on February 3, 2016. (FAC Iflf 173(A),(B).) The matter
was for set for hearing before Judge Mockler on February
17, 2016. (FAC f 173(C).) Plaintiff contends that the
motion was continued several times to July 25, 2016.
(FAC 1f 173(L)(i).)
Plaintiff filed a motion objecting to Judge Mockler on
February 8, 2016. (FAC 1f 178.) On April 22", 2016, Judge
Ichikawa, a judge for the Superior Court of California,
County of Solano, denied Plaintiff s challenge to Judge
Mockler. (See FAC If 179.)
On April 28, 2016, Judge Mockler presided over a

9a
hearing, which led to a judgment dated June 13, 2016.
(FAC Kt 182 (A)-(B).) At the April 28, 2016 hearing,
Judge Mocker ruled that Plaintiff was a vexatious
litigant who was required to post a bond prior to filing
motions, denied Plaintiffs motion for summary
judgment, and denied Plaintiffs motion to set aside and
vacate the March 2, 2016 judgment. See ids. [Plaintiff
further contends that he was treated differently than
similarly situated people because he has been unable to
find cases in which persons in his situation were treated
as he was. (See FAC U 184.)] The twelfth cause of action
challenges the validity of the June 13, 2016 judgment.
On July 1, 2016, Judge Mockler held a hearing on
three matters: (1) Plaintiffs Motion for Simplified
Modification of Order for Child and Spousal Support; (2)
Plaintiffs Notice of
5
Case 4:18-cv-00293-KAW Document 87
07/03/18 Page 6 of 10

Filed

Objections (Family Code § 4251); and (3) Plaintiffs
Request for Order to void three findings and orders filed
February 5, 2016, February 29, 2016, and February 22,
2016. (FAC 1H1188(A)-(B).) The hearing resulted in a
September 20, 2016 judgment. (FAC K 191(B).) Plaintiff
also alleges that Judge Mockler entered a judgment (or
other order) on September 8, 2016, the underlying facts
of which are impossible to discern from the face of the
complaint. (FAC ^H| 201-212.) [Plaintiff further contends
that he was treated differently than similarly situated
people because he has been unable to find cases in which
persons in his situation were treated as he was. (See FAC
T1 198, 210.)] The thirteenth and fourteenth causes of

10a
action challenge the validity of the September 8, 2016
and September 20, 2016 judgments.
The fifteenth cause of action is against the court of
appeal and Chief Justice Cantil- Sakauye for fading to
provide a “meaningful review” of the judgments entered
on June 13, 2016, September 8, 2016, and September 20,
2016, including the finding that he was a vexatious
litigant. (FAC 214,216-18.) [Plaintiff further contends
that he was treated differently than simdarly situated
people because he has been unable to find cases in which
persons in his situation were treated as he was. (See FAC
If 219.)] Plaintiff filed appeals of the three judgments.
(FAC U 214.) Counsel for Ms. Isham filed motions to
dismiss on November 23, 2016, after which the Court of
Appeal dismissed the appeal on January 26, 2017. (FAC
IfH 215, 217(D).) Ultimately, Plaintiff petitioned for
review with the California Supreme Court, which was
also denied. (FAC 1H| 218(D)-(E).)
On January 12, 2018, Plaintiff filed this lawsuit. In
response to the motions to dismiss the original complaint,
Plaintiff filed the first amended complaint on April 6,
2018, and the undersigned terminated the pending
motions. The first amended complaint, including
exhibits, consists of 338 pages and alleges fifteen causes
of action against the various defendants.
On April 19, 2018, the County Defendants!, Category
3,] filed a motion to dismiss. (County Defs.’ Mot., Dkt. No.
51.) On April 26, 2018, Plaintiff filed an opposition. (Pl.’s
County Defs. Opp’n, Dkt. No. 60.) On May 10, 2018, the
County Defendants filed a reply. (County Defs.’ Reply,
Dkt. No. 71.)
On April 20, 2018, the Judicial Defendants^
Category 4,] filed a motion to dismiss. (Judicial Defs.’
Mot., Dkt. No[s]. [52, ] 53) On April 30, 2018, Plaintiff
filed an opposition. (Pl.’s Judicial Defs. Opp’n, Dkt. No.

11a
6[1].) On May 8, 2018, the Judicial Defendants filed a
reply. (Judicial Defs.’ Reply, Dkt. No. 68.)
On April 20,2018, Tracey Wapnick[, part of Category
2,] filed a motion to dismiss. (Wapnick Mot., Dkt. No. 54.)
On May 2, 2018, Plaintiff filed an opposition. (Pl.’s
Wapnick Opp’n, Dkt. No. 62.) On May
6
Case 4:18-cv-00293-KAW Document 87
07/03/18 Page 7 of 10

Filed

9, 2018, Ms. Wapnick filed a reply. (Wapnick Reply,
Dkt. No. 7[0].)
On April 20, 2018, Kimberly Campbell and Wilham
Whiting[, part of Category 2,] filed a motion to dismiss.
(C&W Mot., Dkt. No. 55.) On May 3, 2018, Plaintiff filed
an opposition. (Pl.’s C&W Opp’n, Dkt. No. 64.) On May
11, 2018, Ms. Campbell and Mr. Whiting filed a reply.
(C&W Reply, Dkt. No. 72.)
On April 20, 2018, Garrett Dailey[, part of Category
2,] filed a motion to dismiss. (Dailey Mot., Dkt. No. 56.)
On May 4, 2018, Plaintiff filed an opposition. (Pl.’s Dailey
Opp’n, Dkt. No. 65.) On May 11, 2018, Mr. Dailey filed a
reply. (Dailey Reply, Dkt. No. 74.)
On April 24, 2018, Catherine Isham[, Category 1,]
filed a motion to dismiss. (Isham Mot., Dkt. No. 58.) On
May 5, 2018, Plaintiff filed an opposition. (Pl.’s Isham
Opp’n, Dkt. No. 66.) Ms. Isham did not file a reply.
Plaintiff and all named defendants have appeared
and consented to the jurisdiction of the undersigned
magistrate judge to conduct all further proceedings in
this case, including trial and the entry of final judgment,
pursuant to 28 U.S.C. § 636(c). (Dkt. Nos. 10, 16, 17, 19,
23-25.)

12a
II. LEGAL STANDARD
Under Federal Rule of Civil Procedure 12(b)(6), a
party may file a motion to dismiss based on the failure to
state a claim upon which relief may be granted, A motion
to dismiss under Rule 12(b)(6) tests the legal sufficiency
of the claims asserted in the complaint. Navarro v. Block,
250 F.3d 729, 732 (9th Cir. 2001) [quoting Collins v.
Superior Court In and For Los Angeles County (1957) 150
Cal.App.2d 354’s “no set of facts” test for legal sufficiency
that was abrogated bv Bell Atlantic Corp. v. Twombly
(2007) 550 U.S. 544],
In considering such a motion, a court must “accept as
true all of the factual allegations contained in the
complaint,” Erickson v. Pardus, 551 U.S. 89, 94 (2007)
(per curiam) (citation omitted), and may dismiss the case
or a claim “only where1 there is no cognizable legal theory”
or there is an absence of “sufficient factual matter to state
a facially plausible claim to relief.” Shroyer v. New
Cingular Wireless Servs., Inc., 622 F.3d 1035, 1041 (9th
Cir. 2010) (citing Ashcroft v. Iqbal, 556 U.S. 662, 677-78
(2009); Navarro, 250 F.3d at 732) (internal quotation
marks omitted).
Generally, if the court grants a motion to dismiss, it
should grant leave to amend even if no request to amend.
is made “unless it determines that the pleading could not
possibly be cured by
7
Case 4:18-cv-00293-KAW
07/03/18 Page 8 of 10

Document

87

Filed

the allegation of other facts.” Lopez v. Smith, 203
F.3d 1122, 1127 (9th Cir. 2000) ([Dissent,] citations [sic]
omitted [This Lopez quote is: (1) from the dissent;

13a
therefore, not legal authority, (2) cites to only one
authority (Armstrong u. Rushing (9th Cir. 1965) 352 F.2d
836), which is applicable only to in forma pauperis
complaints, and thus, inapposite here—especially since
Armstrong is superseded by statute]).
III. DISCUSSION
In each of the six motions to dismiss, the defendants
argue that the instant lawsuit is barred by the RookerFeldman doctrine. (County Defs.’ Mot. at 4; C&W Mot. at
6; Dailey Mot. at 5; Isham Mot. at 5; Judicial Defs.’ Mot.
at 9; Wap nick Mot. at [8].)
The Rooker-Feldman2 doctrine deprives the federal
courts of jurisdiction to hear direct appeals from the
judgments of state courts. Cooper v. Ramos, 704 F.3d 772,
777 (9th Cir. 2012). The purpose of the doctrine is to
“protect state judgments from collateral federal attack.”
Doe & Assoc. Law Offices v. Napolitano, 252 F.3d 1026,
1030 (9th Cir. 2001). The Rooker-Feldman doctrine
applies not only to final state[-]court orders and
judgments, but to interlocutory orders [sic] and non-final
judgments issued by a state court as well. Id.', Worldwide
Church of God v. McNair, 805 F.2d 888, 893 n. 3 (9th Cir.
1986).
The Rooker-Feldman doctrine “bars a district court
from exercising jurisdiction not only over an action
explicitly styled as a direct appeal,” but also “the de facto
equivalent of such an appeal.” Noel v. Hall, 341 F.3d
1148, 1155 (9th Cir. 2003) [quotes are nowhere to be
found in Noel\. To determine whether an action functions
as a de facto appeal, we “pay close attention to the relief
sought by the federal court plaintiff.” Bianchi u.
Rylaarsdam, 334 F.3d 895, 900 (9th Cir. 2003) (internal
quotation marks and citation omitted). An action
functions as a forbidden de facto appeal when the
plaintiff is: “[1] assert[ing] as his injury legal errors by

14a
the state court and [2] see [king] as his remedy relief from
the state[-]court judgment.” Kougasian v. TMSL, Inc.,
359 F.3d 1136,1140 (9th Cir. 2004) (citing Noel, 341 F.3d
at 1163) [(1) Misquoting headnote, not Kougasian, (2)
Kougasian never cites to Noel at 1163.].
Here, [ignoring: (i) 11 of] Plaintiffs [15 claims (claims
3, and 6-15) or 73% of his claims, and (ii) ignoring that
the California courts had no subject matter jurisdiction,
his] operative complaint is premised on the allegation
that the trial court in the underlying action wrongfully
entered judgments modifying Plaintiffs child support
and spousal support payments, and ordering distribution
of marital and separate property. Plaintiff, having
2 The Rooker-Feldman doctrine derives its name from
two United States Supreme Court cases: District of
Columbia Court of Appeals u. Feldman, 460 U.S. 462
(1983), and Rooker v. Fidelity Trust Company, 263 U.S.
413 (1923).
8

Case 4:18-cv-00293-KAW Document 87
07/03/18 Page 9 of 10

Filed

lost3 in state court on these issues, alleges that he has
suffered injury as a result of the later judgments, because
he has incurred additional child support and spousal
support obligations and lost funds due to the state []court’s characterization of certain mar[it]al and separate
property. Indeed, Plaintiff seeks [declaratory relief] that
all [sic] state[-]court judgments entered after December
6, 2011 are invalid. Since Plaintiff alleges, as his legal
injury, erroneous decisions by the state court, and seeks
relief from those judgments, the federal action raises a de

15a
facto appeal.
In opposition,4 Plaintiff argues that the RookerFeldman doctrine does not apply, because [the FAC]
“does not ask this Court to review any final state-court
judgments. Instead, it ask[s] this Court to enforce final
state-court judgments in accordance with Exxon Mobil
Corp. v. Saudi Basic Industries Corp. (2005) 544 U.S.
280.” (See Pl.’s Judicial Defs.’ Opp’n at 6.) Exxon,
however, is inapposite, because it involved parallel state
and federal litigation. Exxon, 544 U.S. at 292. (“When
there is parallel state and federal htigation, RookerFeldman is not triggered simply by the entry of judgment
in state court.”) Here, there are no parallel proceedings,
as the instant case was filed after the judgments were
entered in the state [-]court proceeding. As a result, this
is the very type of case described by the Exxon court as
being subject to the Rooker-Feldman doctrine, as it was
“brought by [a] state-court loserQ complaining of injuries
caused by state-court judgments rendered before the
district court proceedings commenced and inviting
district court review and rejection of those judgments.”
Exxon, 544 U.S. at 284. Thus, to the extent that Plaintiff
argues that Exxon supersedes Rooker-Feldman, or
otherwise assists him here, he is mistaken.
Plaintiff further argues that he is asking the federal
court to enforce the December 6, 2011 judgment that was
favorable to him and to void the other state [-] court
judgments that he contends were entered without subject
matter jurisdiction. (See Pl.’s Judicial Defs.’ Opp’n at 13.)
This argument is unavailing. There is no way to view this
case other than as a de facto appeal, because
9
3 Despite Plaintiffs arguments to the contrary, the

16a
judgments entered after December 6, 2011 were
unfavorable to him, thereby making him a “loser” for the
purposes of Rooker-Feldman. (See Pl.’s Judicial Defs.
Opp’n at. 22 (characterizes himself as having won prior
judgments).)
4 Plaintiff makes the same arguments regarding
Rooker-Feldman in all of his oppositions. (See Pl.’s
County Defs. Opp’n at 13-17; Pl.’s C&W Opp’n at 18-22;
Pl.’s Dailey Opp’n at 18-21; Pl.’s Isham Opp’n at 16-17;
Pl.’s Judicial Defs. Opp’n at 19-24; Pl.’s Wapnick Opp’n
at 17-20.) Thus, for the sake of simplicity, the
undersigned will cite only to his opposition to the Judicial
Defendants’ motion to dismiss.
Case 4:18-cv-00293-KAW
07/03/18 Page 10 of 10

Document

87

Filed

his seeking to void later judgments is tantamount to
seeking relief from same.
Additionally, to the extent that Plaintiffs allegations
seek any examination of the alleged misconduct,
including that by the judicial officers in exercising subject
matter jurisdiction, this would require the district court
to review the state court decision, which it is unable to
do. See Worldwide Church of God v. McNair, 805 F.2d
888, 892-93 (9th Cir. 1986) (The district court cannot
evaluate a plaintiffs alleged constitutional claims
without conducting a review of the state court’s legal
determinations, and it lacks subject matter jurisdiction
for the latter.), [sic] Indeed, Plaintiffs only recourse was
to file appeals with the California Court of Appeal, which
he appears to have done and lost. Plaintiffs only
opportunity to appeal to a federal court would have been
to appeal to the United States Supreme Court, which he

17a
apparently did not do [sic].
Lastly, to the extent that Plaintiff argues that
Rooker-Feldman is unconstitutional, the doctrine
remains the law of the land, and the undersigned is
obligated to follow it. (See Pl.’s Judicial Defs.’ Opp’n at
23[-24].)
Accordingly, the Rooker-Feldman doctrine divests
the district court of subject matter jurisdiction, which
requires the undersigned to grant the motions to dismiss
without leave to amend, as any amendment would be
futile. As such, the Court need not address the alternate
grounds on which the defendants have separately moved
to dismiss the operative complaint.
IV. CONCLUSION
In light of the foregoing, Defendants’ six motions to
dismiss are GRANTED without leave to amend, because
the district court does not have subject matter
jurisdiction pursuant to the Rooker-Feldman doctrine.
The Clerk shall close the case.
IT IS SO ORDERED.
Dated: July 3, 2018
/s/ Kandis Westmore
KANDIS A. WESTMORE
United States Magistrate Judge
10

18a

APPENDIX B
TRIAL COURT: NOTICE OF
ELECTRONIC FILING (7/3/18)
Case 4:18-cv-00293-KAW Document 88 Filed
07/03/18 Page 1 of 1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Notice of Electronic Filing
The following transaction was entered on 7/3/2018 at
10:52 AM and filed on 7/3/2018
Case Name: Hadsell v. Baskin et al
Case Number: 4:18-cv-00293-KAW
Filer:
Document Number: 88(No document attached) [sic]
Docket Text:
ORDER by Judge Kandis A. Westmore terminating
[77] Motion for Bond as moot in fight of [87] order
granting motions to dismiss without leave to amend.
(This is a text-only entry generated by the court. There is
no document associated with this entry.) (kawlcl,
COURT STAFF) (Filed on 7/3/2018)

19a

APPENDIX C
TRIAL COURT: JUDGMENT (7/3/18)
Case 4:18-cv-00293-KAW Document 89 Filed
07/03/18 Page 1 of 1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
CHRISTOPHER HADSELL, Plaintiff
v.
BARRY BASKIN, et al., Defendants.
Case No. 4:18-cv-00293-KAW
JUDGMENT
Re: Dkt. No. 87
On July 3, 2018, the Court granted Defendants'
motions to dismiss without leave to amend. (Dkt. No. 87.)
Pursuant to Federal Rule of Civil Procedure 58, the Court
hereby ENTERS judgment in favor of Defendants and
against Plaintiff. The Clerk of Court shall close the file in
this matter.
IT IS SO ORDERED.
Dated: July 3, 2018
/s/ Kandis Westmore
KANDIS A. WESTMORE
United States Magistrate Judge

20a

APPENDIX D
TRIAL COURT: ORDER DENYING
MOTIONS TO VACATE 7/3/18 ORDERS
(8/2/18)
Case 4:18-cv-00293-KAW Document 95 Filed
08/02/18 Page 1 of 1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
CHRISTOPHER HADSELL, Plaintiff
v.
BARRY BASKIN, et al., Defendants.
Case No. 4:18-cv-00293-KAW
JUDGMENT
Re: Dkt. Nos. 93, 94
On July 31, 2018, Plaintiff[,] Christopher Hadsell[,]
filed motions to vacate the July 3, 2018 order granting
the motion to dismiss without leave to amend (Dkt. No.
93) and the order denying the motion to award service
expenses (Dkt. No. 94), pursuant to Federal Rule of Civil
Procedure 59(e), on the grounds that the undersigned
“committed clear errors resulting in a decision that is
manifestly unjust.” (Dkt. No. 93 at 2; Dkt. No. 94 at 2.)
The undersigned disagrees. Moreover, no trial was held,
so the rule cited does not apply.

21a
Accordingly, both motions are DENIED. Plaintiff is
advised that this case is closed, and any further motion
practice related to this case may result in the imposition
of sanctions sua sponte on the grounds that Plaintiff is
wasting limited judicial resources. Notwithstanding,
Plaintiff retains his right to timely appeal the July 3,
2018 orders and judgment to the United States Court of
Appeals for the Ninth Circuit.
IT IS SO ORDERED.
Dated: August 2, 2018
/s/ Kandis Westmore
KANDIS A. WESTMORE
United States Magistrate Judge

22a

APPENDIX E
9th CIR.: MEMORANDUM (1/14/20)
Case: 18-16668, 01/14/2020, ID: 11560925,
DktEntry: 58-1, Page 1 of 3
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHRISTOPHER HADSELL, Plaintiff-Appellant,
v.
BARRY BASKIN, in his individual capacity et al.,
Defendant-Appellees.
No. 18-16668
D.C. No. 4:18-cv-00293-KAW
MEMORANDUM*
Appeal from the United States District Court for the
Northern District of California
Kandis A. Westmore, Magistrate Judge, Presiding**
Submitted January 8, 2020***

Before: CALLAHAN, NGUYEN, and HURWITZ,
Circuit Judges.

23a
Christopher Hadsell appeals pro se from the district
court’s judgment dismissing his 42 U.S.C. § 1983 action
alleging federal and state law claims
*
This disposition is not appropriate for
publication and is not precedent except as provided by
Ninth Circuit Rule 36-3.
**
The parties consented to proceed before a
magistrate judge. See 28 U.S.C. § 636(c).
The panel unanimously concludes this case
is suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).
Case: 18-16668, 01/14/2020, ID: 11560925,
DktEntry: 58-1, Page 2 of 3
relating to California state[-]court child and spousal
support orders. We have jurisdiction under 28 U.S.C. §
1291. We review de novo. Noel v. Hall, 341 F.3d 1148,
1154 (9th Cir. 2003) (dismissal under the RookerFeldman doctrine). We affirm.
The district court properly dismissed Hadsell’s action
challenging the California state court’s child and spousal
support proceedings for lack of subject matter
jurisdiction under the Rooker-Feldman doctrine because
it is a “forbidden de facto appeal” of decisions of the
California state court and are “inextricably intertwined”
with those state court decisions. See Noel, 341 F.3d at
1163-65; see also Cooper v. Ramos, 704 F.3d 772, 782 (9th
Cir. 2012) (explaining that Rooker-Feldman doctrine
bars “inextricably intertwined” claim where federal
adjudication “would impermissibly undercut the state
ruling on the same issues” (citation and internal

24a

quotation marks omitted)).
The district court did not abuse its discretion in
denying Hadsell’s motion to alter or amend the judgment
because Hadsell failed to establish any basis for such
rehef. See Sch. Dist. No. 1J, Multnomah Cty., Or. v.
ACandS, Inc., 5 F.3d, 1262-63 (9th Cir. 1993) (setting
forth standard of review and grounds for reconsideration
under Fed. R. Civ. P. 59(e)).
The district court did not abuse its discretion in
denying Hadsell’s motion to impose service costs because
defendants had good cause to not sign and return a
Case: 18-16668, 01/14/2020, ID: 11560925,
DktEntry: 58-1, Page 3 of 3
waiver. See Fed. R. Civ. P. 4(d)(2); Estate of Darulis
u. Garate, 401 F.3d 1060, 1063 (9th Cir. 2005) (standard
of review).
The district court did not abuse its discretion in
denying Hadsell’s motion for sanctions because Hadsell
failed to comply with the procedural requirements of
Rule 11. See Radcliffe v. Rainbow Constr. Co., 254 F.3d
772, 788 (9th Cir. 2001) (standard of review; there are
“strict procedural requirements for parties to follow when
they move for sanctions under Rule 11.”)
The district court did not abuse its discretion by
ruling on the motion to dismiss without oral argument.
See Fed. R. Civ. P. 78(b); Morrow v. Topping, 437 F.2d
1155, 1156-57 (9th Cir. 1971) (district court’s failure to
hold oral argument on a motion to dismiss was not an
abuse of discretion or a denial of due process).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief, or

25a
arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th
Cir. 2009).
We reject as unsupported by the record Hadsell’s
contention that the district court judge was biased.
AFFIRMED.

26a

APPENDIX F
9th CIR.: ORDER (4/20/20)
Case: 18-16668, 04/20/2020, ID: 11665547,
DktEntiy: 62, Page 1 of 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHRISTOPHER HADSELL, Plaintiff-Appellant,
v.
BARRY BASKIN, in his individual capacity et al.,
Defendant-Appellees.
No. 18-16668
D.C. No. 4:18-cv-00293-KAW
Northern District of California
ORDER
Before: CALLAHAN, NGUYEN, and HURWITZ,
Circuit Judges.
The panel has voted to deny the petition for panel
rehearing.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. See Fed. R. App.
P. 35.
Hadsell’s petition for panel rehearing and petition for

27a
rehearing en banc (Docket Entry Nos. 59 and 61) are
denied.
Hadsell’s request for publication of the memorandum
disposition (Docket Entry No. 60) is denied.
No further filings will be entertained in this closed
case.

j

28a

APPENDIX G
9th CIR.: MANDATE (4/28/20)
Case: 18-16668, 04/28/2020, ID: 11673782,
DktEntry: 63, Page 1 of 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHRISTOPHER HADSELL, Plaintiff-Appellant,
v.

BARRY BASKIN, in his individual capacity et al.,
Defendant-Appellees.
No. 18-16668
D.C. No. 4:18-cv-00293-KAW
U.S. District Court for Northern California, Oakland
MANDATE

The judgment of this Court, entered January 14,
2020, takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.

29a
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

J

30a

APPENDIX H
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED IN THIS CASE
The pertinent constitutional provisions and statutes
involved in this case that are not concomitantly quoted in
the text are:
U.S. Constitution
U.S. Const. Amend. I:
Congress shall make no law... abridging... the right
of the people... to petition the Government for a redress
of grievances.
U.S. Const. Amend. V:
No person shall be... deprived of life, liberty, or
property, without due process of law;...
U.S. Const. Amend. VII:
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of trial
by jury shall be preserved.
U.S. Const. Amend. XI:
The Judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.

31a
U.S. Const. Amend. XIV, §1:
... [No] State [shall] deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.
U.S. Statutes
28 U.S.C. §1254:
Cases in the courts of appeals may be reviewed by the
Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or after
rendition of judgment or decree;...
28 U.S.C. §1257:
(a) Final judgments or decrees rendered by the
highest court of a State in which a decision could be had,
may be reviewed by the Supreme Court by writ of
certiorari where... the validity of a statute of any State is
drawn in question on the ground of its being repugnant
to the Constitution, treaties, or laws of the United States,
or where any title, right, privilege, or immunity is
specially set up or claimed under the Constitution or the
treaties or statutes of, or any commission held or
authority exercised under, the United States.
28 U.S.C. §1331:
The district courts shall have original jurisdiction of
all civil actions arising under the Constitution, laws, or
treaties of the United States.

32a
28 U.S.C. §1343:
(a) The district courts shall have original jurisdiction
of any civil action authorized by law to be commenced by
any person:...
(3) To redress the deprivation, under color of any
State law, statute, ordinance, regulation, custom or
usage, of any right, privilege or immunity secured by the
Constitution of the United States or by any Act of
Congress providing for equal rights of citizens or of all
persons within the jurisdiction of the United States;
(4) To recover damages or to secure equitable or
other relief under any Act of Congress providing for the
protection of civil rights, including the right to vote.
28 U.S.C. §2201:
(a) In a case of actual controversy within its
jurisdiction... any court of the United States, upon the
filing of an appropriate pleading, may declare the fights
and other legal relations of any interested party seeking
such declaration, whether or not further relief is or could
be sought. Any such declaration shall have the force and
effect of a final judgment or decree and shall be
reviewable as such.
29 U.S.C. §1056:
(d) Assignment or alienation of plan benefits
(1) Each pension plan shall provide that benefits
provided under the plan may not be assigned or
alienated.
42 U.S.C. §1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or

33a
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer's judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable....
Judicial Code 1911, §237:
Sec. 236. The Supreme Court shall have appellate
jurisdiction in the cases hereinafter specially provided
for.
Sec. 237. A final judgment or decree in any suit in the
highest court of a State in which a decision in the suit
could be had, where is drawn in question the validity of a
treaty or statute of, or an authority exercised under, the
United States, and the decision is against their validity;
or where is drawn in question the validity of a statute of,
or an authority exercised under any State, on the ground
of their being repugnant to the Constitution, treaties, , or
laws of the United States, and the decision is in favor of
their validity or where any title, right, privilege, or
immunity is claimed under the Constitution, or any
treaty or statute of, or commission held or authority
exercised under, the United States, and the decision is
against the title, right, privilege, or immunity especially
set up or claimed, by either party, under such
Constitution, treaty, statute, commission, or authority,
may be reexamined and reversed or affirmed in the
Supreme Court upon a writ of error. The writ shall have
the same effect as if the judgment or decree complained

34a
of had been rendered or passed in a court of the United
States. The Supreme Court may reverse, modify, or
affirm the judgment or decree of such State court, and
may, at their discretion, award execution or remand the
same to the court from which it was removed by the writ.
California Statutes
Cal. Code Civ. Proc. §680.230:
“‘Judgment’ means a judgment, order, or decree
entered in a court of this state.”
Cal. Gov. Code§68081:
Before... a court of appeal renders a decision in a
proceeding... based upon an issue which was not
proposed or briefed by any party to the proceeding, the
court shall afford the parties an opportunity to present
their views on the matter through supplemental briefing.
If the court fails to afford that opportunity, a rehearing
shall be ordered upon timely petition of any party.

